OIG Investigative Reports, Former Philadelphia Charter School Principal Charged With Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
March 21, 2006
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chestnut Street - Suite 1250
Philadelphia, Pennsylvania 19106-4476
(215) 861-8200
FORMER PHILADELPHIA CHARTER SCHOOL PRINCIPAL CHARGED WITH FRAUD
PHILADELPHIA  United States Attorney Patrick L. Meehan and United States  Department of Education Inspector General John P. Higgins, Jr., today announced the filing of an Indictment  charging Curtis Andrews with six counts of wire fraud in connection with a scheme to defraud the Philadelphia School District.
According to the indictment, between May 2000 and June 2003, Andrews was the principal and chief administrative officer of the Center for Economics and Law ("CEL"), a charter school located in Philadelphia and operating within the Philadelphia School District (the "School District").  As a charter school operating within the School District, CEL was funded in part with public taxpayer dollars it received from the School District.  The amount of funding CEL received from the School District depended upon the number of students attending CEL.  Notably, the School District relied upon charter schools like CEL to report their enrollment information honestly and accurately so that these schools received the appropriate amount of funding.
As the principal of CEL, Andrews engaged in a scheme to defraud the School District by causing falsely inflated student enrollment data to be submitted to the School District, thereby causing the School District to provide funding to CEL to which CEL was not entitled.  As Andrews knew, limitations in the School District's computer network prevented the School District from knowing that a student had left CEL, where that student had transferred to another school outside of the School District (such as a parochial school or a school outside of Philadelphia) or had dropped out of school altogether.  Andrews exploited these limitations in the School District's computer network by directing his staff to report to the Network that students who had either transferred to another school outside of the School District, or dropped out of school altogether, continued to attend CEL, when in fact as Andrews knew, these students did not attend CEL.  As a result of the defendant's scheme to defraud, the School District overpaid CEL approximately $200,000 in public education funds.
"Not only did he defraud the school district but he dragged his staff into his scheme," said Meehan.  "These are public funds designed to improve the lives of young people through education.  When the system is manipulated like this, students suffer and taxpayers are cheated."
INFORMATION REGARDING THE DEFENDANT(S)
NAMEADDRESSAGE
CURTIS ANDREWSSicklerville, NJ58 years old
If convicted the defendant faces a maximum possible sentence of 120 years imprisonment, a $1.50 million fine, 3 years of supervised release and a $600 special assessment.
The case was investigated by the U.S. Department of Education, Office of Inspector General and the Federal Bureau of Investigation, and has been assigned to Assistant United States Attorney Leo R. Tsao.
UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT, PENNSYLVANIA
Suite 1250, 615 Chestnut Street
Philadelphia, PA  19106
Contact:	RICH MANIERI
Media Contact
215-861-8525
Printable view
Share this page
Last Modified: 03/24/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov